             NAVY FINANCIAL REPORTING OF
         GOVERNMENT-OWNED MATERIALS HELD BY
          COMMERCIAL SHIPYARD CONTRACTORS


Report No. D-2001-071                 March 2, 2001




             Office of the Inspector General
                 Department of Defense
      Additional Copies

      To obtain additional copies of this audit report, visit the Inspector General, DoD
      Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
      Distribution Unit of the Audit Followup and Technical Support Directorate at
      (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

      Suggestions for Future Audits

      To suggest ideas for or to request future audits, contact the Audit Followup and
      Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
      fax (703) 604-8932. Ideas and requests can also be mailed to:

                        OAIG-AUD (ATTN: AFTS Audit Suggestions)
                         Inspector General, Department of Defense
                            400 Army Navy Drive (Room 801)
                                Arlington, VA 22202-4704

      Defense Hotline

      To report fraud, waste, or abuse, contact the Defense Hotline by calling
      (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
      by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
      The identity of each writer and caller is fully protected.




Acronyms
CPMS               Contract Property Management System
DCAA               Defense Contract Audit Agency
DFARS              Defense Federal Acquisition Regulation Supplement
FAR                Federal Acquisition Regulation
NDPPE              National Defense Property, Plant, and Equipment
OM&S               Operating Materials and Supplies
SFFAS              Statement of Federal Financial Accounting Standards
SUPSHIP            Supervisor of Shipbuilding, Conversion and Repair
USD(C)             Under Secretary of Defense (Comptroller)
                       Office of the Inspector General, DoD
Report No. D-2001-071                                                    March 2, 2001
  (Project No. D2000FA-0094)

       Navy Financial Reporting of Government-Owned Materials
              Held by Commercial Shipyard Contractors

                               Executive Summary

Introduction. We performed this audit in support of the Chief Financial Officers Act
of 1990, as amended by the Government Management Reform Act of 1994. In
March 2000, the Under Secretary of Defense (Comptroller) requested that the Defense
Contract Audit Agency (DCAA) conduct an audit to validate the value of Government-
owned property held by contractors. DCAA agreed to assist the DoD Inspector
General in examining the processes and requirements for reporting operating materials
and supplies. DCAA will report on the Government-owned property held by
contractors based on a review of 36 contractors throughout DoD.

The FY 1999 Navy financial statements reported $29.3 billion of operating materials
and supplies, which included $11.3 billion of Government-owned materials held by
contractors. Government-owned materials are materials furnished by the Government
that are intended to be incorporated in, or attached to, a deliverable end item or
materials consumed in the performance of the contract.

Objectives. The audit objective was to determine whether DoD property in the
possession of contractors is properly reported in the account balances for DoD financial
statements or required supplementary stewardship information. Specifically, we
focused on whether the Navy accurately reported operating materials and supplies held
by five commercial shipyard contractors. We did not review the management control
program as it related to the overall objectives because DCAA evaluated internal
controls at the five commercial shipyards.

Results. The Navy reported the value of Government-owned materials held by
contractors using the Contract Property Management System database, which did not
provide complete or accurate financial data that met the requirements of Federal
accounting standards. Furthermore, the Navy overstated the value of $4.3 billion of
Government-owned materials reviewed at five commercial shipyards by at least
$1.4 billion for FY 1999. As a result, the Navy disclaimed the appropriateness of the
balance on its financial statements for FY 1999. For FY 2000, the Navy is not
reporting any values for Government-owned materials held by contractors on its
financial statements. Until corrected, the Navy will continue to report incomplete and
inaccurate financial data in FY 2001 and beyond. For details of the audit results, see
the Finding section of the report.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) revise the DoD Financial Management Regulation, DoD 7000.14-R to
require Government-owned materials held by contractors to be reported as assets in the
financial statements and as acquisitions-in-process in accordance with Statement of
Federal Financial Accounting Standards. We also recommend that the Director,
Defense Procurement, revise the Defense Federal Acquisition Regulation Supplement
after the updated DoD property accountability procedures are agreed upon. We
recommend that the Commander, Naval Sea Systems Command, provide accurate
pricing data on Government-owned materials furnished from the Navy to the
contractors and continue developing financial accounting feeder systems so values
reported on the financial statements can be relied upon.

Management Comments. The Deputy Chief Financial Officer nonconcurred with the
recommendation and disagreed with our interpretation of Statement of Federal Financial
Accounting Standard No. 3. The Deputy stated that commercial shipyard contractors
are end users and that material held by contractors should be expensed and not reported
as an asset on the financial statements. The Director, Defense Procurement, concurred
with the intent of the recommendation on revising the Defense Federal Acquisition
Regulation Supplement. The Director stated that the Under Secretary of Defense
(Acquisition, Technology, and Logistics), in coordination with the Under Secretary of
Defense (Comptroller); Office of the Inspector General, DoD; and the General
Accounting Office, is developing new property accountability procedures to improve
financial reporting of Government-owned materials. The Director offered to revise the
Defense Federal Acquisition Regulation Supplement as soon as the new property
accountability procedures are agreed upon. The Commander, Naval Sea Systems
Command, did not provide comments. See the Finding section for a discussion of the
management comments and the Management Comments section for a complete text of
the management comments.

Audit Response. We disagree with the Deputy Chief Financial Officer’s assertion that
Government-owned materials held by commercial shipyard contractors should be
expensed and not reported as assets in the financial statements. The Deputy’s position
is inconsistent with the Statement of Federal Financial Accounting Standard No. 3.
The Statement of Federal Financial Accounting Standard No. 3 specifically states that
contractors that hold materials for future use are not end users. However, we revised
the recommendation to clarify that Government-owned material held by contractors
should be accounted for as an asset in the financial statements and expensed in an
acquisition-in-process account when issued by the contractor in the manufacturing of
Navy ships. The Director, Defense Procurement, comments were responsive. The
Director agreed to revise the Defense Federal Acquisition Regulation Supplement after
the new property accountability procedures are agreed upon. We changed the
recommendation to reflect this sequence of events. We also deleted the
recommendations that require contractors to report the value of Government-owned
materials in the Contract Property Management System database by categories because
the Director agreed to revise the Defense Federal Acquisition Regulation Supplement.
We request the Under Secretary of Defense (Comptroller) and the Commander, Naval
Sea Systems Command, provide comments to the final report by April 30, 2001.




                                          ii
Table of Contents

Executive Summary                                                             i

Introduction
     Background                                                              1
     Objectives                                                              1

Finding
     Government-Owned Materials Held by Contractors                          3

Appendixes
     A. Audit Process
           Scope                                                             13
           Methodology                                                       14
     B. Prior Coverage                                                       15
     C. Accounting Requirements for Operating Materials and Supplies         16
     D. Pricing Data for Government-Owned Materials Furnished to Five
          Commercial Shipyards                                               18
     E. Report Distribution                                                  22

Management Comments
     A. Office of the Under Secretary of Defense (Comptroller)               25
     B. Office of the Under Secretary of Defense (Acquisition, Technology,
         and Logistics)                                                      28
Background
     The Chief Financial Officers Act of 1990 (Public Law 101-576), as amended by
     the Government Management Reform Act of 1994 (Public Law 103-356),
     requires DoD to submit annual, audited financial statements to the Director,
     Office of Management and Budget. Additionally, the DoD Financial
     Management Regulation (DoD 7000.14-R) and the Statement of Federal
     Financial Accounting Standards (SFFAS) provide guidance for preparing the
     financial statements. The combined requirements of the public laws,
     regulations, and standards provide guidance for reporting Government-owned
     materials held by contractors as part of operating materials and supplies
     (OM&S) on the DoD financial statements. A description of the SFFAS and the
     DoD 7000.14-R as they apply to OM&S is in Appendix C.

     Federal Acquisition Regulation Part 45. The Federal Acquisition Regulation
     (FAR) part 45, “Government Property,” provides guidance to contractors for
     reporting Government-owned property in the contractors’ possession. The
     Defense Federal Acquisition Regulation Supplement (DFARS) part 245,
     “Government Property,” provides more specific guidance for contractors
     performing work for the DoD. The FAR part 45 defines Government-owned
     property in the custody of contractors as property owned or acquired by the
     Government under the terms of the contract. In this report, we focus on
     materials, which are included in the definition of Government-owned property
     whether furnished to contractors by the Government or acquired by contractors
     for the Government.

     Annual Reporting of Government-Owned Property. Defense contractors
     annually report the amount of Government-owned property in their possession
     on the DD Form 1662, “DoD Property in the Custody of Contractors,”
     March 1989. The FAR part 45 requires contractors to report the dollar value of
     each category of property on the DD Form 1662. DoD property administrators
     review the DD Form 1662 and enter the Government-owned property data from
     the DD Form 1662 into the Contract Property Management System (CPMS).
     The CPMS is a DoD system that provides an annual snapshot of Government-
     owned property balances as of September 30 to give Congress an annual
     overview of Government-owned property; however, the CPMS was not
     designed for reporting financial data.

     During our audit, the Under Secretary of Defense (Comptroller) (USD [C])
     requested the Defense Contract Audit Agency (DCAA) to assess the
     classification and valuation of Government-owned property held by contractors.
     DCAA performed the evaluation at 36 contractor locations and provided results
     to the USD(C) in September 2000.

Objectives
     The audit objective was to determine whether DoD property in the possession of
     contractors is properly reported in the account balances for DoD financial


                                        1
statements or required supplementary stewardship information. Specifically, we
focused on whether the Navy accurately reported the operating materials and
supplies held by five commercial shipyard contractors. We did not review the
management control program because DCAA was to evaluate internal controls
at the shipyards. See Appendix A for a discussion of the audit scope and
methodology and Appendix B for prior coverage.




                                  2
                    Government-Owned Materials Held by
                    Contractors
                    The Navy reported the value of Government-owned materials held by
                    contractors on its financial statements for FY 1999 using the CPMS
                    database, which did not provide complete or accurate financial data. The
                    CPMS data were incomplete and inaccurate because:

                             •   the DFARS does not require contractors to report the value of
                                 Government-owned materials held by contractors in a manner
                                 that meets Federal and DoD financial statement reporting
                                 requirements;

                             •   the Navy did not provide the value or adequate supporting
                                 documentation for at least 2,157 items and overstated at least
                                 $1.4 billion of Government-owned materials furnished to the
                                 contractors; and

                             •   the contractors did not report at least $2.2 million of costs
                                 associated with materials acquired and fabricated for the
                                 Government.

                    As a result, the Navy overstated the value of $4.3 billion of Government-
                    owned materials reviewed at five commercial shipyards by at least
                    $1.4 billion in its financial statements for FY 1999. Also, for FY 2000,
                    the Navy is not reporting any values for Government-owned materials
                    held by contractors on its financial statements because CPMS is not
                    reliable and the Navy has no other source for this data. Therefore, the
                    Navy will continue to report incomplete and inaccurate financial data on
                    financial statements for FY 2001 and beyond if the CPMS database is not
                    corrected.

Navy Reporting of Government-Owned Materials Held by
  Contractors
           The Navy reported the value of Government-owned materials held by
           contractors using the CPMS database. In FY 1999, the Navy reported
           $29.3 billion in total OM&S,1 of which $11.3 billion was Government-owned
           materials held by contractors. Of the $11.3 billion, we reviewed $4.3 billion of
           Government-owned materials held by five commercial shipyards. We
           determined that the CPMS database did not provide accurate or complete
           financial information that met the requirements of SFFAS No. 3, "Accounting
           for Inventory and Related Property," October 27, 1993.

1
    Total Operating Materials and Supplies consists of the following categories: ammunition, sponsor-owned
    material, Government-furnished materials, contractor-acquired material, secondary end items, and other.
                                                      3
Completeness of Contractor Guidance
           The FAR part 45 and DFARS part 245 require DoD contractors to keep official
           records for Government-owned property held by the contractors. However, the
           FAR and DFARS do not require contractors to report the value of Government-
           owned materials held by contractors in a manner that meets Federal and DoD
           financial statement reporting requirements. Therefore, the commercial shipyard
           contractors did not identify and report Government-owned materials by
           categories similar to those established by the SFFAS No. 3 or separately report
           on-hand materials and work-in-process balances in accordance with the
           SFFAS No. 3 and SFFAS No. 8, “Supplementary Stewardship Reporting,”
           September 30, 1997.

           Categorizing of Government-Owned Materials. The CPMS database
           provided incomplete financial data because the DFARS does not require
           contractors to identify and record Government-owned materials held by required
           categories. The SFFAS No. 3, paragraph 37, requires that materials be
           reported on the financial statements by the following categories: (1) held for
           use; (2) held in reserve for future use; or (3) excess, obsolete, and
           unserviceable. Because contractors were not required to report Government-
           owned materials in accordance with financial requirements, we were unable to
           determine the value of materials held by contractors by specific category.
           However, we performed a limited review of Government-owned materials based
           on receiving dates listed on shipping documents and contractor databases. We
           determined that Government-owned materials may be held in warehouses for as
           long as 4 years. Contractors stated that the dates received are not always
           updated and items were not necessarily used from the inventory on a first-in,
           first-out basis. Unless the DFARS is revised to require that Government-owned
           materials held by contractors be reported by categories similar to those
           established by the SFFAS No. 3, DoD will not be able to comply with Federal
           financial reporting standards.

           Reporting Government-Owned Materials On Hand and Work In Process.
           The CPMS provided incomplete financial data because the DFARS did not
           require contractors to identify and separately record on-hand materials and
           work-in-process balances for Government-owned materials. The SFFAS Nos. 3
           and 8 require Government-owned materials used in construction of National
           Defense Property, Plant and Equipment (NDPPE) 2 to be expensed when
           incorporated into the end item. As a result, materials that have been issued for
           construction must be reported in a work-in-process account, separate from
           material that is on hand.

           Even though the five commercial shipyard contractors were not required to
           report Government-owned materials issued to a work-in-process account

2
    SFFAS No. 11, “Amendments to Accounting for Property, Plant, and Equipment,” October 1998,
    amended SFFAS No. 8 by eliminating the category of Federal mission PP&E and creating a new
    category for national defense PP&E.

                                                  4
    separate from materials on hand, we identified about $31 million of
    Government-owned materials that should have been reported as work in process
    at two of the five shipyards. For example, one contractor identified at least
    $27 million of the $343.5 million of Government-owned materials that should
    have been reported as work in process for three contracts reported in the CPMS
    database. We also determined that $3.9 million of the $83.8 million of
    Government-owned materials reported in CPMS by another contractor should
    have been reported as work in process. See the table on page 6 and Appendix D
    for details from each shipyard.

Accuracy of Values Provided by the Navy
    The Naval Sea Systems Command is the contract administrator and property
    administrator for Navy contracts with commercial shipyards. The Naval Sea
    Systems Command did not provide accurate values or adequate supporting
    documentation for Government-owned materials furnished to the contractors and
    reported in the CPMS database.

    The CPMS database provided financial information that was inaccurate because
    values for Government-owned materials furnished by the Navy to the
    contractors were unreliable. The values were unreliable because the Navy did
    not provide contractors with individual prices for substantial quantities of
    Government-owned materials. Of 5,799 Government-owned material items
    furnished to the contractors by the Navy at three of the five commercial
    shipyards, the contractors did not have prices on supporting documents for
    2,157 items (37 percent). Contractors reported zero value for Government-
    owned materials when unable to obtain price information from the Navy or
    develop reasonable estimates.

    The values of the Government-owned materials furnished to the contractors
    were also unreliable because the contractors reported total system prices
    provided by the Navy in CPMS even if component items of the systems had not
    been received. For example, the contractor at the Supervisor of Shipbuilding,
    Conversion and Repair, Pascagoula, Mississippi, reported a total of $1.5 billion
    for Government-owned materials furnished by the Navy. Based on supporting
    documentation, we determined the value of Government-owned materials
    furnished by the Navy was only $163 million. Inaccurate pricing at two other
    shipyards resulted in overstatements of approximately $63.7 million. By
    reporting the Government-owned materials at the system prices or at zero value
    in the CPMS database, the commercial shipyard contractors overstated
    Government-owned materials by approximately $1.4 billion and understated
    2,157 items of Government-owned materials by an undetermined value. See the
    table on page 6 and Appendix D for details from each shipyard.




                                       5
Accuracy of Values Provided by the Contractors
            The contractors did not include all costs associated with materials acquired and
            fabricated for the Government when reporting the value of Government-owned
            materials in the CPMS database.

            The CPMS database provided financial information that was inaccurate because
            the value of materials acquired by the contractor for the Government did not
            include the full cost that the Government paid for the materials. SFFAS No. 3
            requires Government-owned materials to be reported at historical cost, which
            would include all costs (for example, labor and overhead) incurred by the
            contractor to acquire or fabricate the materials it provides to the Government.

            At the five commercial shipyards, the contractors did not report in CPMS the
            full costs of the materials the contractors acquired or fabricated for the Navy,
            which resulted in understatements totaling at least $21.9 million. See the table
            below for details from each shipyard.


                       Overstatement of Government-Owned Materials Reported
                                In FY 1999 Navy Financial Statements
                                           (in thousands)

                                      Not
                                    Reported                Improper Value Provided By:
            Commercial              As Work
             Shipyard               In Process               Navy                 Contractors

            Shipyard 1                UND               $1,369,914 (O)            $    32 (U)
            Shipyard 2             $27,000 (O)               4,500 (O)               UND
            Shipyard 3               3,918 (O)              59,174 (O)              2,700 (U)
            Shipyard 4                UND                     UND                     104 (U)
            Shipyard 5                UND                     UND                  19,029 (U)
             Total                 $30,918              $1,433,588                $21,865

               Net Overstatement of Government-Owned Materials                        $1,442,641

            O = Overstated
            U = Understated
            UND = Undeterminable

            Of the $4.3 billion of Government-owned materials reviewed at five commercial
            shipyards, approximately $1.4 billion, or 33 percent,3 was overstated on the
            FY 1999 Navy financial statements. In the FY 2000 financial statements, the
            Navy is not reporting any value for Government-owned materials held by
            contractors.

3
    The 33 percent only applies to the five shipyards visited during the audit.

                                                        6
Disclosure of Government-Owned Materials Held by
  Contractors
    The FY 1999 Navy financial statements reported $29.3 billion in OM&S,
    including $11.3 billion for Government-owned materials held by contractors,
    but also disclosed that the data contained material financial reporting limitations.
    Footnote 1A, “Significant Accounting Policies: Basis of Presentation,” of the
    Navy financial statements states that the Navy:
               …is unable to implement all elements of the SFFAS due to limitations
               of its financial management processes and systems, including
               nonfinancial feeder systems and processes. Reported values and
               information for the [Navy’s] major asset and liability categories are
               derived from nonfinancial feeder systems, such as inventory systems
               and logistic systems [including CPMS]. These systems are designed
               to support reporting requirements focusing on maintaining
               accountability over assets and reporting the status of federal
               appropriations, and not the current emphasis of business-like financial
               management reporting. As a result, the [Navy] can not currently
               implement all elements of SFFAS. However, the [Navy] continues to
               implement process and system improvements addressing the
               limitations of its financial and nonfinancial feeder systems.

    Also, Footnote 8B, “Operating Materials and Supplies (OM&S), Net,” of the
    FY 1999 Navy financial statements states the following:
               The consumption method of accounting for the recognition of expenses
               has been applied to OM&S. However, current financial and logistics
               systems can not fully support the consumption method.…During
               FY 2000, the [Navy] along with the DoD will examine the process and
               requirements for reporting this material.

    However, based on DoD 7000.14-R, volume 6B, chapter 4, October 2000, the
    Navy did not report any value for Government-owned material held by
    contractors in its FY 2000 financial statements and Footnote 9B, “Operating
    Materials and Supplies (OM&S), Net,” states:
               Government Furnished Material (GFM) and Contractor Acquired
               Material (CAM) [Government-owned Material held by contractors].
               The value of the [Reporting Entity’s] GFM and CAM in the hands of
               the contractors is generally not included in the OM&S values reported
               above. The DoD is presently reviewing its process for reporting these
               amounts in an effort to determine the appropriate accounting treatment
               and the best method to annually collect and report required
               information without duplicating information already in other existing
               logistics systems.




                                             7
Navy and DoD Actions
    In FY 2000, USD(C), DCAA, and the Assistant Secretary of the Navy
    (Research, Development, and Acquisition) examined the processes and
    requirements for reporting Government-owned materials held by contractors.

    Navy Actions. In FY 2000, the Navy had an OM&S working group review its
    accounting practices for Government-owned property. The OM&S working
    group recommended moving data onto the Defense Property Accountability
    System and developing a financial accounting feeder system that will capture
    data the Navy needs to accurately report Government-owned property on its
    financial statements. In addition, the Navy stated that it will follow USD(C)
    changes to DoD 7000.14-R by not using CPMS data and not reporting any value
    for Government-owned materials held by contractors on its FY 2000 financial
    statements.

    Under Secretary of Defense (Comptroller) Actions. In FY 2000, USD(C)
    requested that DCAA review Government-owned property held by contractors
    reported in the CPMS database for FY 1999 and proposed changes to
    DoD 7000.14-R for FY 2000 financial statement reporting of OM&S.

    USD(C) requested DCAA to obtain data on Government-owned property and
    materials held by contractors that will assist USD(C) in developing policies for
    financial statement reporting. The DCAA evaluation included eight categories
    of Government-owned property and materials: other real property, other plant
    equipment, industrial plant equipment, special test equipment, special tooling,
    agency peculiar property (NDPPE), Government-furnished material, and
    contractor-acquired material. DCAA performed the evaluation at 36 contractor
    sites, including 3 commercial shipyards, and provided the results of the audit to
    USD(C) in September 2000. DCAA reported that contractor policies and
    procedures for accounting for Government-owned property and materials were
    inconsistent and that the policies and procedures lacked sufficient detail to
    ensure accurate financial reporting of the value or age of the items, or both.

    Based on the USD(C) proposed change, the October 2000 version of
    DoD 7000.14-R, volume 6B, chapter 4, states that the CPMS database shall not
    be used for reporting the value of Government-owned materials held by
    contractors on DoD financial statements. In the October 2000 version of
    DoD 7000.14-R, volume 6B, chapter 10, the reporting entities are required to
    state that Government-furnished materials and contractor-acquired materials held
    by contractors are generally not included in OM&S values reported on the
    financial statements. The Inspector General, DoD, provided comments to the
    DoD 7000.14-R drafts in August and October 2000, stating that the reporting
    entities should use CPMS in lieu of reporting no value for Government-owned
    materials held by contractors. If the Navy follows the revised DoD 7000.14-R,
    the Navy will not be able to report values for Government-owned materials held
    by contractors because CPMS is the only method the Navy has in place for
    obtaining the data.

                                       8
   SFFAS Requirements. The SFFAS No. 3 requires that the reliability of the
   data reported in the financial statements be disclosed in the footnotes. If the
   data used in the financial statements are unreliable, the footnotes should state
   that the values reported are unreliable and state whether the unreliable data have
   a material impact on the financial statements as a whole. To comply with the
   SFFAS, the Navy should use CPMS to report Government-owned materials held
   by contractors as part of OM&S in the FY 2000 financial statements and
   disclose that the values are not reliable. Therefore, USD(C) needs to rescind its
   form and content policy change and require the Military Departments to use
   CPMS to report Government-owned materials held by contractors on the
   financial statements, and disclose that the data is unreliable until the Military
   Departments develop reliable financial feeder systems. We made similar
   recommendations in our August 2000 comments to the draft of the
   DoD 7000.14-R, volume 6B, chapter 4, July 2000.

   DoD Policy on OM&S. DoD 7000.14-R, volume 4, “Accounting Policy and
   Procedures,” chapter 4, “Operating Materials and Supplies and Stockpile
   Materials,” updated November 1999, was published to implement the
   requirements of the SFFAS No. 3 for DoD. However, DoD 7000.14-R does
   not agree with the SFFAS No. 8 because DoD 7000.14-R requires that expenses
   for the last 2 fiscal years be reported on the required supplemental stewardship
   information for NDPPE, while the SFFAS No. 8 requires the construction of
   NDPPE items to be tracked in a work-in-process account for financial statement
   reporting.

Summary
   The five commercial shipyards that we reviewed reported inaccurate financial
   values in CPMS for Government-owned materials furnished by the Navy or
   acquired by the contractors primarily because of incomplete financial
   information primarily provided by the Navy and maintained in contractor
   property records. In addition, commercial shipyard contractors reported
   inaccurate financial values in CPMS for Government-owned materials because
   of the lack of requirements to separately report materials on hand and issued to
   the end item (work in process), which is required for financial statement
   reporting. The Navy used this inaccurate financial data for Government-owned
   materials held by the contractors to support OM&S reported in its FY 1999
   financial statements. As a result, the Navy disclaimed the appropriateness of the
   balance. Also, the Navy overstated the value of $4.3 billion of
   Government-owned materials by at least $1.4 billion for FY 1999. In FY 2000,
   the Navy did not report any value for Government-owned materials and will
   continue to report balances that should be disclaimed for OM&S.

   DoD 7000.14-R, volume 6B, chapter 4, October 2000, states that the CPMS
   database shall not be used for reporting the value of Government-owned
   materials held by contractors on DoD financial statements, which is not in
   accordance with DoD financial statement reporting requirements, SFFAS Nos. 3
   and 8. Because the values reported for Government-owned materials held by
   contractors cannot be relied upon, the values for Government-owned materials
                                       9
    on hand should be disclosed as OM&S in the notes section to the financial
    statements until the Navy can provide auditable and reliable financial data.

Recommendations, Management Comments, and Audit
  Response
    Revised, Deleted, and Renumbered Recommendations. As a result of
    management comments, we revised draft Recommendations A.1. and A.2. to
    improve the reporting of Government-owned materials in the possession of
    contractors. We deleted Recommendations A.2.a. and A.2.b. Draft
    Recommendations A.1., A.2., B.1., and B.2. have been renumbered as
    Recommendations 1., 2., 3.a., and 3.b.

    1. We recommend the Under Secretary of Defense (Comptroller), revise the
    DoD Financial Management Regulation, DoD 7000.14-R, to comply with
    Statement of Federal Financial Accounting Standards that require
    Government-owned materials held by contractors to be reported as assets in
    the financial statements in accordance with Statement of Federal Financial
    Accounting Standard No. 3 and as acquisition-in-process in accordance with
    Statement of Federal Financial Accounting Standard No. 8.

    Management Comments. The Deputy Chief Financial Officer disagreed that
    Government-owned materials held by commercial shipyard contractors are part
    of operating materials and supplies, and should be reported in the financial
    statements. The Deputy stated that Statement of Federal Financial Accounting
    Standard No. 3, Paragraph 36, specifically excludes goods that were acquired
    for use in constructing real property or assembling equipment to be used by the
    entity. In addition, the Statement of Federal Financial Accounting Standard
    No. 3, Paragraph 39, states that operating materials and supplies are expensed
    when issued to an end user for consumption. Furthermore, Navy ships are
    National Defense property, plant, and equipment. Statement of Federal
    Financial Accounting Standard No. 6, Paragraphs 53 and 55, provide for
    National Defense property, plant, and equipment to be expensed rather than
    capitalized.

    Audit Response. The Deputy Chief Financial Officer comments are
    inconsistent with the applicable standards. We agree that Navy ships are
    National Defense property, plant, and equipment. However, we do not agree
    that Government-owned materials held by commercial shipyard contractors are
    in the hands of the end user. We revised the recommendation to clarify that
    Government-owned material held by contractors should be accounted for as an
    asset in the financial statements and expensed in an acquisition-in-process
    account when issued by the contractor in the manufacturing of Navy ships.
    Although the Deputy Chief Financial Officer stated that Navy ships are National
    Defense property, plant, and equipment, the Deputy referred to a paragraph in
    Statement of Federal Financial Accounting Standard No. 3 that applied to real
    property and assembling equipment. We believe the Deputy Chief Financial
    Officer erroneously referred to this paragraph, since little, if any, of the

                                       10
Government-owned materials we reviewed were used in the construction of real
property or assembled equipment. We request the Under Secretary of Defense
(Comptroller) to reconsider its position on the reporting of Government-owned
materials held by contractors and provide additional comments on the final
report.

2. We recommend that the Director, Defense Procurement, revise the
Defense Federal Acquisition Regulation Supplement as soon as the updated
DoD property accountability procedures are agreed upon.

Management Comments. The Director, Defense Procurement, concurred with
the intent of the recommendation. The Director stated that the Under Secretary
of Defense (Acquisition, Technology and Logistics), in coordination with the
Under Secretary of Defense (Comptroller), DoD, Office of the Inspector
General, and the General Accounting Office is developing new property
accountability procedures to improve financial reporting of Government-owned
materials. These procedures will improve DoD financial reports, including
Government-owned material in the possession of contractors. The Director
offered to revise the Defense Federal Acquisition Regulation Supplement as
soon as the new property accountability procedures are agreed upon. The
Deputy Chief Financial Officer disagreed with this recommendation because the
Deputy believes that Statement of Federal Financial Accounting Standard No. 3
does not require Government-owned material to be reported as an asset on the
financial statements. Therefore, the Defense Federal Acquisition Regulation
Supplement does not need to be revised.

Audit Response. Since the draft report was issued, the Property, Plant, and
Equipment Program Management Office was established to address property
accountability procedures. The Director agreed to revise the Defense Federal
Acquisition Regulation Supplement after the new property accountability
procedures are agreed upon. We revised Recommendation 2. to reflect this
sequence of events. We deleted Draft Recommendations A.2.a. and A.2.b.,
because the Director agreed to revise the Defense Federal Acquisition
Regulation Supplement. As stated in the response under Recommendation 1.,
we disagree with the Deputy Chief Financial Officer and recommend that the
Defense Federal Acquisition Regulation Supplement be revised according to the
response received from the Director, Defense Procurement.

3. We recommend that the Commander, Naval Sea Systems Command:

        a. Provide accurate cost data on material furnished from the Navy
to the contractors in accordance with Government standards and
regulations; and




                                  11
       b. Continue working with the Operating Materials and Supplies
Working Group to develop auditable and reliable financial accounting
feeder systems, so values reported on the financial statements can be relied
upon.

Management Comments. The Navy did not comment on the
recommendations. We request that the Navy provide comments in response to
the final report.




                                 12
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the FY 1999 Navy financial statements and
    required supplementary stewardship information, which included $34 billion of
    property in the possession of contractors. Additionally, we reviewed the
    methodology used by the Navy to report OM&S held by contractors on the
    Navy’s financial statements for FY 1999. We reviewed the process used by the
    Navy to compile the information reported on the financial statements for OM&S
    held by contractors. At 3 of the 5 commercial shipyards we visited, we
    reviewed a judgmental sample of 13 contracts with Government-owned materials
    valued at $2.9 billion. For each contract selected, we obtained and reviewed
    supporting documentation for the amounts of Government-owned materials held
    by contractors and reported on the DD Form 1662 as of September 30, 1999.
    With Navy personnel, we also discussed how the Navy plans to report
    Government-owned material in the FY 2000 financial statements.

    Limitation to Scope. Our review of Government-owned materials was limited
    because the lack of available and reliable records at contractor facilities made a
    review of the age of materials held by contractors too time-consuming. In
    addition, we did not review the management control program as it related to the
    overall objectives because DCAA evaluated internal controls at five commercial
    shipyards.

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure:

           • FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
              future by pursuing a focused modernization effort that maintains U.S.
              qualitative superiority in key warfighting capabilities. Transform the
              force by exploiting the Revolution in Military Affairs, and reengineer
              the Department to achieve a 21st century infrastructure. (01-DoD-2)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
              financial and information management. (01-DoD-2.5)

           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
              on financial statements. (01-DoD-2.5.2)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management high-risk area.
                                        13
Methodology
    Use of Computer-Processed Data. We relied on computer-processed data from
    the DoD CPMS to determine contracting activities to visit and to determine
    audit sample selection. We also relied on computer-processed data from the
    contractor computer systems that supported the dollar amounts reported on the
    DD Form 1662. Although we did not perform a formal reliability assessment of
    computer-processed data, the contracts reviewed and dollar amounts reported
    generally agreed with the information in the computer-processed data. We did
    not find errors that would preclude the use of the computer-processed data to
    meet the audit objectives or that would change the conclusions in this report.

    Audit Period and Standards. We performed this financial-related audit from
    January through November 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and within five commercial shipyards. Further
    details are available upon request.




                                      14
Appendix B. Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
    accessed on the Internet at http://www.dodig.osd.mil/audit/reports.

General Accounting Office
    Report No. NSIAD 98-16 (OSD Case No. 1482), “Financial Reporting: DOD's
    Fiscal Year 1996 Financial Statements Inventory Reporting Does Not Meet
    Standards,” December 24, 1997

    Report No. NSIAD-96-94 (OSD Case No. 1668), “Navy Financial
    Management: Improved Management of Operating Materials and Supplies Could
    Yield Significant Savings,” August 16, 1996

Inspector General, DoD
    Inspector General, DoD, Report No. D-2000-183, “Navy FY 1999 Financial
    Reporting of Operating Materials and Supplies – Ammunition,” September 1,
    2000

    Inspector General, DoD, Report No. 99-243, “Reliability of the Military
    Departments Real Property Databases for Existence and Completeness,” August
    27, 1999

    Inspector General, DoD, Report No. 99-032, “Reporting of DoD Inventory and
    Operating Materials and Supplies on the FY 1997 DoD Consolidated Financial
    Statements,” November 5, 1998

    Inspector General, DoD, Report No. 99-013, “Summary Report on Financial
    Reporting of Government Property in the Custody of Contracts,” October 15,
    1998

    Inspector General, DoD, Report No. 98-042, “Financial Reporting by Selected
    Defense Agencies of Government Property in the Custody of Contractors,”
    December 16, 1997




                                      15
Appendix C. Accounting Requirements for
            Operating Materials and Supplies
   Statements of Federal Financial Accounting Standards. Public Law 101-576,
   "Chief Financial Officers Act of 1990," November 15, 1990, as amended,
   requires Federal organizations to develop and report cost information and to
   systematically measure performance. As a result of those requirements, the
   Federal Accounting Standards Advisory Board issued the SFFAS Nos. 3 and 8.
   According to the SFFAS Nos. 3 and 8, materials are reported as assets on the
   balance sheet when purchased (on hand and not issued) and are expensed when
   issued for consumption in the end item (work in process). Therefore, the cost
   of materials should be expensed once the materials are incorporated or attached
   to an end item. For costs incurred over a number of years, the portion of the
   costs incurred during the period is expensed and the total cost to date is
   recorded in a work-in-process account on the required supplemental stewardship
   report in the period used.

            Accounting for Material. In the SFFAS No. 3, the Federal
   Accounting Standards Advisory Board issued accounting principles for OM&S.
   OM&S is reported as an asset on the balance sheet and is defined as tangible
   personal property to be consumed in normal operations. SFFAS No. 3 requires
   OM&S to be categorized as the following:

                   •   OM&S held for use;

                   •   OM&S held for future use; and

                   •   OM&S excess, obsolete, and unserviceable.

   Government-owned materials held by contractors meet the criteria and are to be
   reported as OM&S.

             Accounting Method for OM&S. The consumption method of
   accounting is used for recognition of expenses for OM&S. The consumption
   method is an assumption as to when to recognize an expense, in the sense that
   the eventual use (consumption) results in the recognition in the expenditure
   account. Under the consumption method, the acquisition of OM&S is viewed as
   the conversion of resources (from cash to OM&S), and not the use of resources.
   Therefore, the entity still has resources to use. Another method for recognizing
   OM&S is the purchase method. Under the purchase method, the acquisition of
   OM&S is considered to be the use of resources. Therefore, the entity has used
   up its resources, or expended them.

            Valuation Method for OM&S. SFFAS No. 3 requires OM&S to be
   valued on the basis of historical cost. Historical cost includes all appropriate
   purchase and production costs that are incurred to bring the items to their
   current condition and location. SFFAS No. 3 states that the first-in/first-out,

                                      16
weighted average, or moving average cost flow assumptions, are the preferred
methods for arriving at historical cost. However, other reasonable valuation
methods could be used if the results reasonably approximated the historical cost
methods (for example, a standard cost or latest acquisition cost system).

          Accounting for National Defense Assets. SFFAS No. 8 provides
guidance pertaining to the information required to be reported on the
supplementary stewardship report. SFFAS No. 8 states that the acquisition cost
of National Defense Property, Plant, and Equipment (NDPPE) is considered an
expense in the period acquired. The cost of material used in construction,
improvement, reconstruction, or renovation of NDPPE is expensed in the period
incurred.

DoD Financial Management Regulation. DoD 7000.14-R states how material
and NDPPE should be accounted for in the DoD financial statements.
DoD 7000.14-R, volume 4, chapter 4, “Operating Materials and Supplies and
Stockpile Materials,” describes OM&S as the amount of tangible personal
property consumed in normal operations. DoD 7000.14-R, volume 6B, chapter
11, “Required Supplementary Stewardship Information Reporting,” requires
Military Departments to disclose Supplementary Stewardship Report
information pertaining to their National Defense Assets. DoD 7000.14-R
requires OM&S to be categorized as OM&S held for use, OM&S held for future
use, or excess, obsolete and unserviceable OM&S.

         Accounting for Material. DoD 7000.14-R states that the consumption
method of accounting for recognition of expenses is ordinarily applied for
OM&S. The consumption method requires OM&S to be recognized as assets
when purchased and the cost of those OM&S to be expensed in the period they
are issued for consumption in normal operations. The consumption method is
based on historical cost, which includes all costs incurred to bring the item to its
current condition and location.

         Accounting for National Defense Assets. NDPPE consists of weapon
systems; components of weapons; mission support property, plant, and
equipment; and weapon systems support real property used by DoD or its
Components in performance of military missions.The DoD Components are
required to report the quantities of National Defense Assets for which they are
accountable as well as their annual outlays for all National Defense Assets.

FMR Disclosure Requirements. DoD 7000.14-R disclosure requirements for
OM&S on the DoD financial statements include the general composition of the
material, the account balances for each category of material, the basis for
determining the values of OM&S, and the decision criteria for assigning OM&S
to the appropriate categories.




                                    17
Appendix D. Pricing Data for Government-Owned
            Materials Furnished to Five
            Commercial Shipyards
   Pricing for Government-Owned Furnished Material at Supervisor of
   Shipbuilding, Conversion and Repair (SUPSHIP) Pascagoula. At SUPSHIP
   Pascagoula, Mississippi, 3 contracts contained 2,598 items of Government-
   owned materials furnished to the contractor and received as of October 6, 1999.
   Of the 2,598 items received, 1,746 items (67 percent) were valued at
   $162.9 million, based on individual or system prices provided to the contractor.
   Because the actual dollar amount reported on the DD Form 1662 for the items
   was $1.5 billion, the DD Form 1662 is potentially overstated by $1.4 billion.
   However, the dollar value of the remaining 852 items (33 percent) that were
   received without an individual price or system price could reduce the
   overstatement by an undeterminable amount. The following table provides an
   example of system prices for Government-owned materials furnished to the
   contractor and reported on the DD Form 1662 compared with the actual price of
   items received for seven hulls under contracts administered by SUPSHIP
   Pascagoula.


               Navy Cost Data For Government-Owned Materials
                       Furnished to the Contractor

                    Government-Owned Material Amounts
    Hull            Reported          Received                   Difference

   LHD 7       $ 117,901,049               $ 43,742,847        $ 74,158,202
   DDG 80        412,404,367                 71,966,179         340,438,188
   DDG 82        414,013,061                 27,905,192         386,107,869
   DDG 84        370,861,229                 10,991,529         359,869,700
   DDG 86        208,313,217                  5,012,566         203,300,651
   DDG 88          9,287,806                  3,247,584           6,040,222

   Total      $1,532,780,729            $162,865,897          $1,369,914,832

   In addition, DCAA reviewed the 20 items of material acquired by the contractor
   and found that none of the 20 items included freight and discount, General and
   Administrative burdens, or Material Acquisition Planning burdens. However,
   DCAA did not quantify the effect the pricing errors would have on the values
   reported in CPMS and the Navy financial statements. The DoD Inspector
   General audit team performed additional calculations on the pricing data
   provided by DCAA for the sample of 20 items, which identified a net increase
   of 11 percent for the cost of the 20 items, or $31,640.



                                      18
Pricing for Government-Owned Furnished Material at SUPSHIP Newport
News. Four contracts reviewed at SUPSHIP Newport News, Virginia, included
3,141 items of Government-owned materials furnished by the Navy to the
contractor. Of the 3,141 items received under the 4 contracts, 1,848 items were
valued at $27,738,667 and 1,297 items (41 percent) did not have price
information on the physical inventory lists. Therefore, the financial statements
were potentially understated by the undeterminable value of the 1,297 items.

From these 4 contracts, we judgmentally sampled 34 items: 23 with a dollar
value assigned and 11 with a dollar value of $0. The 34 items were traced to
the receiving reports to verify the prices. The majority of the receiving reports
either included one price for all the items on the receiving report or did not
contain any prices. Both situations cause the contractor to have to figure out
prices for individual items. For receiving reports that only contained one price
for a whole list of items, contractor personnel (by direction from SUPSHIP
Newport News) assigned the price to the first item on the list and assigned $0 as
the price for each of the remaining items. For receiving reports that contained
no price information, contractor personnel also assign a dollar value of $0 to
each of the items. Therefore, the contractor had no supporting documentation
for the dollar value assigned to these items. As a result, 10 of the 11 items
valued at $0 on the DD Form 1662 also had a value of $0 on the receiving
reports. In addition, 10 of the remaining 24 items had discrepancies in the
dollar value reported on the receiving reports in contrast to the dollar value
reported on the DD Form 1662, which resulted in a net overstatement of
$4.5 million.

The review of three contracts at SUPSHIP Newport News identified additional
Government-owned materials that did not previously have a dollar value
assigned. The dollar amounts for Government-owned materials furnished to the
contractor on all three contracts increased from FY 1998 to FY 1999 because
the contracts had excess Government-owned materials that needed pricing data
before SUPSHIP Newport News could dispose of the materials. The increase in
dollar amounts for Government-owned materials was $18.5 million, which
means that the FY 1998 DD Form 1662 and financial statements were
potentially understated by $18.5 million.

For each of the four sample contracts, we obtained database printouts dated
October 1, 1999, which provided the dollar amounts for the portion of materials
furnished by the Government and consumed during ship construction. Most of
the contracts had a “physical inventory” printout and a “running total” printout.
We reviewed the two printouts for each contract and identified any differences.
The “running total” printout for one contract was $13.2 million, but the
physical inventory for materials furnished by the Government was only
$6.3 million. The difference of $6.9 million represents the dollar value of
materials furnished by the Government that had been issued to the ship and
should have been accounted for in a work-in-process account instead of being
included on the DD Form 1662. Therefore, the DD Form 1662 and financial
statements were overstated by $6.9 million.


                                   19
DCAA determined that the materials acquired by the contractor for the
Government are reported in the CPMS database at the average purchase order
price and no associated overhead, general and administrative costs, or fee was
applied, but was unable to quantify the amount that materials acquired by the
contractor was understated. However, DCAA determined that the value of
materials acquired by the contractor reported in the CPMS database included
both material on-hand and work-in-process balances, but the contractor was able
to separate materials acquired for the Government into material on-hand and
issued material (work in process). Because the $20.1 million of issued material
should have been expensed and reported in a work-in-process account, the
CPMS database was potentially overstated by $20.1 million.

Pricing for Government-Owned Furnished Material at SUPSHIP Groton.
At SUPSHIP Groton, Connecticut, 1 contract contained 69 systems on the
Government-owned materials price list provided by the Navy and all 69 systems
had a price assigned. On April 5, 2000, 7 of the 69 systems were judgmentally
selected to determine whether all components making up the systems had been
received. Only 9,068 of the 30,845 components for the 7 systems had been
received as of April 5, 2000. Additionally, 1,442 of the components received
had already been issued to the ship. Based on an agreement between the Navy
and contractor personnel, the contractor reported $83,815,974 on the financial
statement for these seven items. However, only $20,723,834 should have been
reported in CPMS as Government-owned materials. In addition, $3,918,061 of
the resulting $63,092,140 overstatement should have been transferred to a
work-in-process account.

DCAA reviewed contractor pricing data for four contracts with Government-
owned materials acquired by the contractor that the audit team had judgmentally
selected. DCAA identified internal control weaknesses in the policies,
procedures, and pricing techniques used for reporting materials acquired by the
contractor in the CPMS database. For two contracts, DCAA determined that
$5 million was reported in the CPMS database as materials acquired by the
contractor that were actually materials furnished by the Government. The
misclassification of materials would not affect the Navy financial statements
because both types of Government-owned materials are reported as OM&S on
the balance sheet. However, DCAA also determined that the contractor might
have potentially understated materials acquired by the contractor on one contract
by $2.7 million because of omissions, which would result in the Navy financial
statements being understated.

Pricing for Government-Owned Furnished Material at SUPSHIP San Diego.
DCAA performed the audit work at SUPSHIP San Diego, California. Out of
5,961 items of Government-owned materials furnished to the contractor, DCAA
took a sample of 31 items to validate the contractor’s pricing data. DCAA was
able to verify the values reported on the DD Form 1662 for 23 of the 31 items.
One of the remaining eight items represented the dollar value for two ship sets
of class standard equipment; however, the component parts that make up the
class standard equipment were listed at zero dollar value. In addition, the
remaining seven items were reported at zero dollar value and the contractor had
no supporting documentation to establish values for these items. DCAA also

                                   20
       reviewed contractor pricing data for 30 items of material acquired by the
       contractor. DCAA validated the pricing data for 29 of the 30 items; the
       remaining item was a component part reported at zero value and the contractor
       did not have supporting documentation to establish a value. DCAA determined
       that the contractor used purchase order prices for reporting materials acquired
       by the contractor in the CPMS database. The prices did not include indirect
       expenses or fees, which would have been calculated at eight percent in
       FY 1999. As a result, the $1,306,078 of materials acquired by the contractor
       and reported in CPMS as of September 30, 1999, was understated by $104,486.
       Therefore, the financial statements were understated by the same amount.

       Pricing for Government-Owned Furnished Material at SUPSHIP Bath.
       DCAA performed the audit work at SUPSHIP Bath, Maine. Out of $1.1 billion
       worth of Government-owned materials furnished to the contractor, DCAA took
       a sample of 29 items worth $40 million to validate the contractor’s pricing data.
       DCAA was able to verify the values reported on the DD Form 1662 for all
       29 items. In addition, DCAA reviewed contractor pricing data for 21 items of
       materials acquired by the contractor. Of the 21 sampled items, DCAA
       determined that 10 items were correctly valued; 3 items were incorrectly valued;
       5 items were misclassified (should have been reported as materials furnished by
       the Government [3] and special tooling [2]); and 3 items were priced at the
       “Government reference price” instead of the contractor's actual price.

              •   Two of the three items incorrectly valued resulted in an
                  overstatement of $971,398 because the contractor doubled their
                  price; each item cost $485,699, but the contractor reported each item
                  at $971,398.

              •   For the five misclassified items, materials acquired by the contractor
                  were overstated by the value of the five items; materials furnished by
                  the Government and special tooling were understated by the same
                  amount. Therefore, the net effect would be zero.

              •   The three items priced at the “Government reference price” were
                  understated by $8,456 because the contractor did not use the
                  purchase price.

In addition, DCAA identified an understatement on the DD Form 1662 of
approximately $20 million of material items acquired by the contractor located at
subcontractor locations and not reported by the contractor. As a result, the Navy
financial statements are potentially understated by approximately $20 million and
overstated by approximately $1 million.




                                          21
Appendix E. Report Distribution

Office of the Secretary of Defense
  Under Secretary of Defense (Acquisition, Technology and Logistics)
  Under Secretary of Defense (Comptroller)
    Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Procurement

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Sea Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         23
Under Secretary of Defense (Comptroller)
Comments




                      25
 Final Report
  Reference




Revised and
Renumbered
as Recommen-
dation 1.




Revised and
Renumbered
as Recommen-
dation 2.




                26
27
Under Secretary of Defense (Acquisition,
Technology and Logistics) Comments




                       28
     Final Report
      Reference




     Revised and
     Renumbered
     as Recommen-
     dation 2.

     Deleted




     Deleted




29
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Ronald W. Hodges
Lorin T. Pfeil
Pauletta P. Pitter
